<html>
<title> - REAUTHORIZATION OF THE NATIVE AMERICAN HOUSING ASSISTANCE AND SELF-DETERMINATION ACT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                     REAUTHORIZATION OF THE NATIVE 
                      AMERICAN HOUSING ASSISTANCE 
                       AND SELF-DETERMINATION ACT 
=======================================================================
                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   HOUSING AND COMMUNITY OPPORTUNITY

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 6, 2007

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 110-34

                     U.S. GOVERNMENT PRINTING OFFICE

37-550 PDF                 WASHINGTON DC:  2006
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001




















                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 BARNEY FRANK, Massachusetts, Chairman

PAUL E. KANJORSKI, Pennsylvania      SPENCER BACHUS, Alabama
MAXINE WATERS, California            RICHARD H. BAKER, Louisiana
CAROLYN B. MALONEY, New York         DEBORAH PRYCE, Ohio
LUIS V. GUTIERREZ, Illinois          MICHAEL N. CASTLE, Delaware
NYDIA M. VELAZQUEZ, New York         PETER T. KING, New York
MELVIN L. WATT, North Carolina       EDWARD R. ROYCE, California
GARY L. ACKERMAN, New York           FRANK D. LUCAS, Oklahoma
JULIA CARSON, Indiana                RON PAUL, Texas
BRAD SHERMAN, California             PAUL E. GILLMOR, Ohio
GREGORY W. MEEKS, New York           STEVEN C. LaTOURETTE, Ohio
DENNIS MOORE, Kansas                 DONALD A. MANZULLO, Illinois
MICHAEL E. CAPUANO, Massachusetts    WALTER B. JONES, Jr., North 
RUBEN HINOJOSA, Texas                    Carolina
WM. LACY CLAY, Missouri              JUDY BIGGERT, Illinois
CAROLYN McCARTHY, New York           CHRISTOPHER SHAYS, Connecticut
JOE BACA, California                 GARY G. MILLER, California
STEPHEN F. LYNCH, Massachusetts      SHELLEY MOORE CAPITO, West 
BRAD MILLER, North Carolina              Virginia
DAVID SCOTT, Georgia                 TOM FEENEY, Florida
AL GREEN, Texas                      JEB HENSARLING, Texas
EMANUEL CLEAVER, Missouri            SCOTT GARRETT, New Jersey
MELISSA L. BEAN, Illinois            GINNY BROWN-WAITE, Florida
GWEN MOORE, Wisconsin,               J. GRESHAM BARRETT, South Carolina
LINCOLN DAVIS, Tennessee             JIM GERLACH, Pennsylvania
ALBIO SIRES, New Jersey              STEVAN PEARCE, New Mexico
PAUL W. HODES, New Hampshire         RANDY NEUGEBAUER, Texas
KEITH ELLISON, Minnesota             TOM PRICE, Georgia
RON KLEIN, Florida                   GEOFF DAVIS, Kentucky
TIM MAHONEY, Florida                 PATRICK T. McHENRY, North Carolina
CHARLES A. WILSON, Ohio              JOHN CAMPBELL, California
ED PERLMUTTER, Colorado              ADAM PUTNAM, Florida
CHRISTOPHER S. MURPHY, Connecticut   MICHELE BACHMANN, Minnesota
JOE DONNELLY, Indiana                PETER J. ROSKAM, Illinois
ROBERT WEXLER, Florida               THADDEUS G. McCOTTER, Michigan
JIM MARSHALL, Georgia
DAN BOREN, Oklahoma

        Jeanne M. Roslanowick, Staff Director and Chief Counsel
           Subcommittee on Housing and Community Opportunity

                 MAXINE WATERS, California, Chairwoman

NYDIA M. VELAZQUEZ, New York         JUDY BIGGERT, Illinois
JULIA CARSON, Indiana                STEVAN PEARCE, New Mexico
STEPHEN F. LYNCH, Massachusetts      PETER T. KING, New York
EMANUEL CLEAVER, Missouri            PAUL E. GILLMOR, Ohio
AL GREEN, Texas                      CHRISTOPHER SHAYS, Connecticut
WM. LACY CLAY, Missouri              GARY G. MILLER, California
CAROLYN B. MALONEY, New York         SHELLEY MOORE CAPITO, West 
GWEN MOORE, Wisconsin,                   Virginia
ALBIO SIRES, New Jersey              SCOTT GARRETT, New Jersey
KEITH ELLISON, Minnesota             RANDY NEUGEBAUER, Texas
CHARLES A. WILSON, Ohio              GEOFF DAVIS, Kentucky
CHRISTOPHER S. MURPHY, Connecticut   JOHN CAMPBELL, California
JOE DONNELLY, Indiana                THADDEUS G. McCOTTER, Michigan
BARNEY FRANK, Massachusetts















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    June 6, 2007.................................................     1
Appendix:
    June 6, 2007.................................................    35

                               WITNESSES
                        Wednesday, June 6, 2007

Cabrera, Hon. Orlando J., Assistant Secretary for Public and 
  Indian Housing, U.S. Department of Housing and Urban 
  Development....................................................     7
Chino, Mark R., President, Mescalero Apache Tribe and Chairman, 
  Board of Commissioners, Mescalero Apache Housing Authority.....    24
Difuntorum, Sami Jo, Executive Director, Karuk Tribe Housing 
  Authority......................................................    19
Johnson, Jacqueline L., Executive Director, National Congress of 
  American Indians...............................................    22
Nosie, Wendsler, Sr., Chairman, San Carlos Apache Tribe..........    15
Parish, Cheryl, Vice Chairwoman, National American Indian Housing 
  Council........................................................    17
Yazzie, Aneva J., Chief Executive Officer, Navajo Housing 
  Authority......................................................    21

                                APPENDIX

Prepared statements:
    Cabrera, Hon. Orlando J......................................    36
    Chino, Mark R................................................    50
    Difuntorum, Sami Jo..........................................    53
    Johnson, Jacqueline L........................................    62
    Nosie, Wendsler..............................................    82
    Parish, Cheryl...............................................    91
    Yazzie, Aneva J..............................................   102

              Additional Material Submitted for the Record

Waters, Hon. Maxine:
    Statement of the Association of Alaska Housing Authorities...   109
    Statement of the Housing Assistance Council..................   124
    Statement of Enterprise Community Partners...................   127


                     REAUTHORIZATION OF THE NATIVE 
                      AMERICAN HOUSING ASSISTANCE 
                      AND SELF-DETERMINATION ACT 

                              ----------                              


                        Wednesday, June 6, 2007

             U.S. House of Representatives,
                        Subcommittee on Housing and
                             Community Opportunity,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:39 p.m., in 
room 2128, Rayburn House Office Building, Hon. Maxine Waters 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Waters, Cleaver; Biggert and 
Pearce.
    Also present: Representatives Boren and Kildee.
    Chairwoman Waters. This hearing of the Subcommittee on 
Housing and Community Opportunity will come to order.
    Good afternoon, ladies and gentleman. I would like to first 
thank our ranking member, Judy Biggert, and each of the members 
of the Subcommittee on Housing and Community Opportunity for 
joining me for today's hearing on the reauthorization of the 
Native American Housing Assistance and Self-Determination Act, 
also known as NAHASDA.
    I would like to start by noting that Mr. Kildee is on his 
way, and I think Mr. Boren, as well. Without objection, both 
will be considered members of the subcommittee for the duration 
of this hearing.
    Also, without objection, all members' opening statements 
will be made a part of the record.
    I'm looking forward to hearing from our two panels of 
witnesses today on the discussion draft put forward by Mr. 
Kildee, a proposal that Chairman Frank and I were pleased to 
sign.
    While my own district does not contain tribal lands, I am 
keenly aware of the tremendous need for affordable housing and 
community development funding among the Nation's indigenous 
peoples in California and across the country.
    I was privileged to participate in a subcommittee field 
hearing on Navajo land, which put a real face on the compelling 
national data outlining the scope of this crisis.
    In 2003, the U.S. Commission on Civil Rights issued a 
report entitled, ``A Quiet Crisis: Federal Funding and Unmet 
Needs in Indian Country,'' which found, among other startling 
facts, that fully 90,000 Native American families are homeless 
or underhoused, and an estimated 200,000 housing units are 
needed immediately in Indian Country.
    Moreover, too much of the housing that does exist on tribal 
lands is substandard. For example, according to the Census 
Bureau, nearly 12 percent of residents of Native American land 
lack complete plumbing facilities, compared to just 1 percent 
of the general U.S. population.
    Signed into law in 1996, NAHASDA has been a critical 
resource for tribes nationwide, replacing a number of separate 
HUD programs with a single block grant to tribes that 
recognizes their right to self-governance.
    In fiscal year 2006, HUD estimates that tribes used NAHASDA 
funds to build, acquire, or substantially rehabilitate more 
than 1,600 rental units and more than 6,000 home ownership 
units. Clearly, we must authorize this essential program before 
it expires on the last day of this fiscal year.
    I think the discussion draft before the subcommittee today 
is an excellent starting point. First, it would accomplish the 
most basic goal of reauthorizing, mainly to enable continued 
appropriations for NAHASDA programs.
    Like so many of our housing programs, NAHASDA has been 
underfunded in recent years. NAHASDA appropriations were $624 
million in both funding year 2006 and funding year 2007, 
culminating years of flat or decreased funding. The President's 
budget for this fiscal year proposes an increase of only $3 
million. I hope we can do better under a reauthorized NAHASDA.
    I'm aware that some controversy exists within the Native 
American community regarding how HUD distributes the NAHASDA 
funding. Although the discussion draft proposes no changes in 
this regard, the subcommittee will certainly benefit from the 
witnesses' perspectives on this thorny issue.
    I'm compelled to mention, too, that NAHASDA funding, indeed 
all Federal funding to Indian tribes, is bound up with a recent 
decision by a tribe not represented here today, a decision to 
expel certain people of mixed-race background that the 
Congressional Native American Caucus, among others, find very 
troubling. However, since that tribe is not here today, and the 
issue is the subject of ongoing litigation in both the Federal 
and tribal courts, I will leave that for further discussion.
    In noting these problems, I do not mean to detract from the 
second key contribution of the discussion draft, namely, 
modifications that would greatly improve and streamline the 
program.
    I've heard from the many tribes in California, including 
the Karuk, whom I am pleased to welcome here today, that they 
want flexibility to innovate and target more of their funds to 
housing and community development activities rather than to a 
bureaucracy created to respond to perceived Federal micro-
management.
    I think the bill strikes a good balance between this 
legitimate desire and the need for reasonable Federal oversight 
of Federal funding. For example, one provision would eliminate 
competitive procurement procedures for purchases of goods and 
services under $5,000. So, for example, tribes won't have to 
get three competitive bids for a box of pencils.
    Additionally, the bill would create self-determined housing 
activities for the tribal communities program, which would 
allow tribes to buy, build, and rehabilitate housing without 
being subject to HUD approval or HUD review. Instead, after 5 
years, HUD would conduct a review of the program and report to 
Congress on its results. This provision gives tribes the 
opportunity to demonstrate that they would benefit from 
increased flexibility and lessened oversight as NAHASDA moves 
into the future.
    Again, I look forward to hearing the perspectives of the 
witnesses on the discussion draft.
    Before I recognize the ranking member, I'd just like to 
reiterate that, while I am certainly in support of and even an 
advocate for expanding funding and making sure that funding has 
enough flexibility to be used in ways that the tribes would 
like to use it, I do not want those who are present here today 
to leave thinking that somehow we are going to move in a way 
that does not take into consideration the problem that I 
alluded to with the Cherokee Indians. That is something that 
must be resolved prior to us moving forward to a markup.
    With that, I would like to recognize our ranking member, 
Ms. Biggert, for her opening statement.
    Mrs. Biggert. Thank you, Madam Chairwoman, and thank you 
for holding this hearing. I would actually like to yield my 
time to the vice ranking member of this subcommittee, Mr. 
Pearce from New Mexico.
    Chairwoman Waters. Mr. Pearce, for 5 minutes.
    Mr. Pearce. Thank you, Chairwoman Waters, and Ranking 
Member Biggert, for holding this hearing.
    The Native American Housing Assistance and Self-
Determination Act is an important act for New Mexico. The 
reauthorization, then, is even more critical to addressing 
Native American housing needs in New Mexico and across the 
United States.
    New Mexico is home to many Native American tribes. In the 
Second District of New Mexico alone, we have eight tribes, 
including Laguna Pueblo, Acoma Pueblo, Zuni Pueblo, Isleta 
Pueblo, Mescalero, the Ramah Navajo Chapter, the Puertocito 
(Alamo) Navajo Chapter, and the To'hajiilee Navajo Chapter. I 
have visited these tribes, toured the reservations, and seen 
the living conditions many of them face.
    I believe that the tribes should have adequate flexibility 
and autonomy to use Indian Housing Block Grant dollars 
efficiently and in a manner that makes the most sense for each 
tribe's specific needs, and since NAHASDA was implemented in 
1996, tribes have obtained more flexibility to use their grant 
money for infrastructure and rehabilitation of homes.
    Recently, I visited the Pueblo of Zuni. While I was there, 
it rained and snowed, which left standing muddy water, snow, 
and ice build-up in the community. In the main heart of the 
community, most of the streets in the historic plaza do not 
have gutters to control the water runoff, nor do the roofs of 
most of the houses have the guttering, so the water simply 
builds up and makes a muddy mess in the middle of town.
    The water began to flow that day down through the streets. 
The residents began to surround their homes with bath towels to 
keep the water from flowing in underneath their doors. This is 
an example wherein the housing dollars should be eligible for 
infrastructure, to help these low-income families build gutters 
in their neighborhoods and protect their homes.
    I'm pleased that my constituent, President Mark Chino, a 
good friend of mine from the Mescalero Apache Tribe, is here 
today to give his thoughts on the NAHASDA and on its 
reauthorization and its impact on Native Americans in New 
Mexico and across the country. The Mescalero Apache Tribe has 
huge housing needs, with over 500 families on the housing 
waiting list. They consistently look for creative ways to bring 
affordable housing to the reservation.
    In last year's Homeland Security Appropriations Act, 
Congress authorized FEMA to give Indian tribes any unused 
manufactured housing units owned by FEMA and not used for 
Stafford Act relief. After some bureaucratic red tape was cut, 
the Mescalero Apaches obtained 67 of these manufactured housing 
units and paid to transport them to New Mexico for use by 
tribal members.
    I'm interested to know whether NAHASDA is currently 
flexible enough to have allowed the Mescalero Apaches to have 
used those dollars to pay for the transportation cost. There's 
a great need for more housing that is quality, affordable, and 
equipped with basic utilities including water, plumbing, gas, 
and electricity. What good is a home if it doesn't have a 
toilet that flushes or if it is subject to flooding every time 
it rains or snows?
    As a member of this committee from a very rural State, I 
believe it is important to raise these issues, to bring more 
understanding of the realities that New Mexicans and our Native 
American tribes face.
    I understand Chairman Frank, Chairwoman Waters, and 
Congressman Kildee have circulated draft legislation to 
reauthorize NAHASDA, and I look forward to working with them on 
this critical issue.
    Thanks to the witnesses, and again thanks to President 
Chino for his presence here. I'd like to also recognize his 
wife, Selene, in the audience today. I look forward to your 
comments. Thank you.
    I yield back the balance of the time.
    Chairwoman Waters. Thank you very much.
    I would now like to recognize Congressman Kildee, a real 
champion for Indian causes, and the Member of Congress who got 
me to sign up to be a member of the caucus.
    Mr. Kildee, for 5 minutes.
    Mr. Kildee. Thank you very much, Madam Chairwoman, and 
Ranking Member Biggert. Thank you for holding this hearing 
today on the discussion draft of the bill to reauthorize the 
Native American Housing Assistance Self-Determination Act, 
NAHASDA.
    I want to take this opportunity, Madam Chairwoman, to 
mention that you are indeed a founding member of the 
Congressional Native American Caucus, and as the Democratic 
chairman of that caucus, I praise your established record as an 
advocate for protecting the sovereign rights of Indian tribes.
    I look forward to being the chief sponsor of this 
reauthorization legislation. I thank you and Chairman Frank for 
signing onto the discussion draft.
    NAHASDA, enacted in 1996, was the first piece of 
comprehensive housing legislation directed solely to Native 
Americans and Alaska Natives. It has become the basic program 
aiding Native Americans in tribal areas with affordable housing 
development, including home ownership, rehabilitation, 
infrastructure development, and other affordable housing 
assistance.
    The success of NAHASDA is clear. Since its enactment, 
thousands of housing units have been constructed or are in 
development. Despite this record, however, there is still a 
substantial unmet need for housing units, a need that continues 
to grow for one of the fastest-growing population groups in the 
country.
    The discussion draft is based largely upon the 
recommendations made by the Native American Indian Housing 
Council. In addition, my staff has, on several occasions, met 
with the House Financial Services Committee staff, the Senate 
Committee on Indian Affairs staff, HUD officials, tribal 
housing directors, inter-tribal organizations, and tribal 
leaders themselves.
    The primary objective of this bill is to improve housing 
conditions in Indian Country. One of the most important 
benefits of NAHASDA is that it promotes self-determination 
among the tribes.
    The discussion draft builds upon the basic framework of 
NAHASDA. These revisions will give tribes greater flexibility 
in meeting the housing needs of their tribal citizens.
    To that end, I'm especially pleased that the discussion 
draft creates a self-determination program which authorizes 
tribes to set aside 15 percent of annual NAHASDA grant funding, 
up to $1 million, for the acquisition, construction, or 
rehabilitation of housing. The year before the next NAHASDA 
reauthorization in 2011, HUD would report to Congress the 
results of this program.
    Among other revisions, this draft will: make certain that 
tribes can compete for Home Investment Partnership Act funds; 
removes competitive procurement rules and procedures for 
purchases and goods under $5,000; makes Federal supply sources 
through GSA more accessible to tribes; recognizes tribal 
preference laws in hiring and contracting for NAHASDA 
activities; allows tribes to carry over NAHASDA funds to a 
subsequent grant year; and permits tribes to establish a 
reserve account up to 20 percent of the tribe's annual NAHASDA 
grant.
    Madam Chairwoman, reauthorization of NAHASDA will build 
upon this success over the past 11 years by providing more 
housing development on our Nation's Indian reservations.
    I look forward to hearing from the witnesses today and 
moving forward on that legislation, and I thank you for this 
courtesy.
    Chairwoman Waters. Thank you very much.
    I now recognize Congressman Boren for an opening statement, 
for 5 minutes, and also recognize the fact that he certainly is 
a champion of Indian causes and Indian housing. He is the 
author of H.R. 1675, that would provide 100 percent loan 
guarantees, which I believe is now on the President's desk.
    Mr. Boren. That's correct.
    Chairwoman Waters. Congressman Boren.
    Mr. Boren. Thank you, Madam Chairwoman.
    I really appreciate all of your work on this issue, and the 
Subcommittee on Housing and Community Opportunity for holding 
today's hearing on Native American housing issues, 
specifically, the reauthorization of the Native American 
Housing Assistance and Self-Determination Act. This is an issue 
that is very important to me, to Oklahoma tribes, and to many 
Native American constituents in my district.
    I appreciate the work the chairwoman and the subcommittee 
have done to this point, and again, I want to thank the 
chairwoman for her help on H.R. 1676, which is the Section 184 
Loan Guarantee Program that is hopefully going to be signed by 
the President very soon.
    You know, extremely poor housing conditions are clear signs 
of poverty and economic stress in Native American areas. In 
fact, the lack of affordable, quality housing has reached 
crisis proportions in some communities, with nearly one-fifth 
of homeowners and over 30 percent of renters spending more than 
one-third of their income on housing each month.
    The poverty rate for Native Americans is nearly 3 times 
that of other Americans, which contributes to Native American 
people living in the worst housing conditions in our Nation. 
These substandard housing conditions are worsened by 
overcrowding that is 3 times more prevalent throughout Native 
American lands.
    Poor housing conditions frequently go hand-in-hand with 
poverty. Forty percent of Native Americans residing on Indian 
lands live in housing that does not have adequate plumbing, 10 
times the national level. That is simply unacceptable.
    While persistent poverty, inadequate housing, and household 
overcrowding are enormous challenges for Native American 
populations, the lack of infrastructure in Indian Country 
further contributes to the cost of developing new housing 
options.
    These factors, combined with a high rate of loan denials, 
leave Native people in this country with real barriers to safe 
and affordable housing. In my home State of Oklahoma, 
affordability problems are consistently the highest in the 
Nation. I feel this legislation we are here to discuss today 
addresses many of the concerns that I have with housing in 
Native American areas.
    I look forward to hearing from today's witnesses and moving 
this legislation forward.
    And Madam Chairwoman, I would like to end by saying I know 
that you have concerns specifically with the Cherokee Nation 
and some of the issues that are going on. The Cherokee Nation 
is within the Second Congressional District in my district of 
Oklahoma.
    I look forward to working with you on those issues. I know 
that we want to make sure that we have equity both in the 
Native American community as well as the African American 
community, and I thank you for your leadership.
    Chairwoman Waters. You are certainly welcome.
    At this time, I'd like to introduce our first panel, which 
consists of the Assistant Secretary for Public and Indian 
Housing for the U.S. Department of Housing and Urban 
Development, Orlando Cabrera.
    Assistant Secretary Cabrera, thank you for appearing before 
the subcommittee today, and without objection, your written 
statement will be made a part of the record, and you will now 
be recognized for a 5-minute summary of your testimony.

   STATEMENT OF THE HONORABLE ORLANDO J. CABRERA, ASSISTANT 
  SECRETARY FOR PUBLIC AND INDIAN HOUSING, U.S. DEPARTMENT OF 
                 HOUSING AND URBAN DEVELOPMENT

    Mr. Cabrera. Thank you, Madam Chairwoman.
    Madam Chairwoman, Ranking Member Biggert, and members of 
the committee, thank you for inviting HUD to provide comments 
with respect to the reauthorization of the Native American 
Housing Assistance and Self-Determination Act.
    My name is Orlando Cabrera, and I am Assistant Secretary 
for Public and Indian Housing (PIH) at the Department of 
Housing and Urban Development.
    PIH is responsible for the management, operation, and 
oversight of HUD's Native American and Native Hawaiian Housing 
and housing-related programs. These programs are available to 
562 federally recognized Indian tribes, five State-recognized 
Indian tribes, and Hawaii's Department of Hawaiian Homelands.
    We serve these entities directly and through their tribally 
designated housing entities, which I'll call TDHEs, by 
providing grants and loan guarantees designed to support 
affordable housing and community development.
    It is a pleasure to appear before you again, and I would 
like to express my appreciation for your continuing efforts to 
improve the housing conditions of American Indian, Alaska 
Native, and Native Hawaiian people.
    Momentum has been attained in Indian Country as it relates 
to housing, and one way to sustain this momentum is through the 
reauthorization of all HUD Native American and Native Hawaiian 
housing programs, including, of course, Title VI of NAHASDA.
    The Department supports reauthorization and is examining a 
number of statutory amendments to NAHASDA that may be offered 
during the reauthorization process.
    Here is a brief overview of the amendments HUD would 
propose that might add value to NAHASDA in the context of 
reauthorization.
    In order to encourage more valued service providers to live 
on reservation land, allow for over-income and essential 
families by amending Section 201(b)(2) of NAHASDA.
    Currently, certain over-income Indian families may be 
declared essential to a tribal community. These families may 
participate in home ownership, Title VI, and model activities, 
but not in the rental program. Rental is a more appropriate 
activity many times for people who may not stay in the 
community for an extended period of time.
    Secondly, amend Section 201(b)(3) so that essential Indian 
families can also be housed, regardless of income. Through an 
oversight, current law allows only non-Indian families to be 
declared essential.
    In order to help families in Indian Country retain the 
value of their property, amend Section 205 to delete the 
requirement for the so-called ``useful life requirements'' and 
binding commitments for home ownership units, and make the 
provision applicable only in the case of rental and lease 
purchase housing that is owned or operated by a grant 
recipient.
    Current restrictions have sometimes prevented or 
discouraged children or the spouses of a deceased home buyer 
from inheriting a deceased's interest in property, and 
sometimes severely hamper home values.
    Amend Section 302, the IHBG allocation formula, to stop 
counting units for FCAS purposes in the year after they are 
conveyed, demolished, or disposed of. This change would comport 
with the process established by the original negotiated 
rulemaking committee that crafted the IHBG regulations.
    Amend Title IV of NAHASDA to clarify that issues related to 
the repayment of FCAS allocations do not constitute, in and of 
themselves, substantial noncompliance by a grantee. The 
declaration of substantial noncompliance triggers a formal 
administrative hearing, which is costly and time-consuming, and 
there's no reason to begin with such a process when a grantee 
mistakenly reports on an overcount or undercount in terms of 
the number of units under management.
    With respect to the operation and maintenance of NAHASDA 
units, amend Section 202(4), the housing services provision, to 
clarify that grantees may use their IHBG funds for the 
maintenance and operation of units developed with IHBG funds. 
Currently, they may do so, but this is considered a model 
activity and requires specific HUD approval.
    This amendment would streamline operations, save money, and 
reduce unnecessary paperwork for grantees and HUD staff.
    Amend Section 102 of NAHASDA to simplify and streamline the 
IHP submission requirements, the Indian Housing Plan, by 
deleting the 5-year plan requirement, streamlining the 1-year 
plan to eliminate duplicative information, and establishing IHP 
due dates based on grantees' program years.
    Finally, delete the requirement for a grantee to describe 
how it would change its programs as a result of its 
experiences. We believe that most grantees would agree that 
these amendments would relieve them of administrative burden 
and free them to concentrate on what they do best--house 
people.
    Amend NAHASDA so that it makes clear that tenant-based or 
project-based assistance created through IHBG will be 
considered the same as tenant-based or project-based assistance 
under Section 8 of the Housing Act of 1937, for all practical 
and legal purposes, if those programs comply with provisions of 
that Act. This will help Native Americans better qualify to 
live in properties financed by the low-income housing tax 
credit.
    Finally, amend the Native Hawaiian Loan Guarantee Program, 
Section 184(a), and conform it to the 184 program, so that the 
NHLG program allows refinancing and removes the current 
requirements on the Department of Hawaiian Homelands that the 
annual Native Hawaiian housing plan must include cross 
references to any loan guarantee activity.
    On a personal note, I would like to thank the members of 
the subcommittee for swift passage of H.R. 1676, the 
reauthorization of Section 184, and the Housing Loan Guarantee 
Program.
    The dramatic increase in the use of the Section 184 program 
is a success story for tribes, TDHEs, and especially for 
thousands of Native American families who are now homeowners as 
a direct result of this program.
    This is an exciting time. More and more opportunities are 
opening up to create new housing and economic development in 
Indian Country.
    Thank you for the opportunity to provide comments today. I 
stand ready to answer any questions you may have.
    [The prepared statement of Secretary Cabrera can be found 
on page 36 of the appendix.]
    Chairwoman Waters. Thank you very much.
    I will recognize myself for 5 minutes.
    I'm going to ask you to expand on the Administration's view 
of 20 percent for housing activities outlined in the tribes' 
housing plan. Could you tell me a little bit more about the 
position that you have taken about this reserve account, and 
whether or not you think that there is the possibility of abuse 
of some kind.
    Mr. Cabrera. Well, reserve accounts in the context of 
housing generally come up on deal-specific issues, so that, for 
example, if you're borrowing money, you're going to have a 
reserve account to take care of things like ongoing maintenance 
concerns, replacing a roof, doing very specific things, or 
taking care of debt.
    If the purpose of NAHASDA funds as a block grant is to 
produce housing, reserving funds really does not get money out 
and utilized as quickly as one would want, and allowing for up 
to 20 percent of the IHBG grant to be set aside when you want, 
I think one would want to have those funds used well and 
quickly, and leveraged wherever possible, would be a policy 
determination that I don't think we would feel comfortable with 
as an Administration.
    Further, reserve accounts generally, when it comes to 
public housing, when it comes to Section 8, have been somewhat 
controversial, so it is a two-headed construct.
    Number one, the issue is moving, moving appropriated money, 
taxpayer money in an efficient way, and number two, not 
creating kitties that really don't get the job done for 
housing.
    Chairwoman Waters. How much discussion have you had with 
the leadership of the Indian tribes, the Native American 
tribes? Have you engaged them in, or have they engaged anybody 
at HUD in this discussion, and why they think it's important to 
have--
    Mr. Cabrera. We have discussed that issue with NAIHC, on at 
least two occasions with, respectfully, ma'am, your staff, and 
with Senate staff present.
    So yes, we've had pretty extensive conversations with the 
panel that represents most TGHEs or many TDHEs in Indian 
Country.
    Chairwoman Waters. All right. Thank you very much. I have 
no further questions. I will recognize the ranking member, Ms. 
Biggert, for 5 minutes.
    Mrs. Biggert. Thank you, Madam Chairwoman.
    Mr. Secretary, I know you spoke about the reserve.
    How do the amendments that you just suggested compare to 
the draft legislation being circulated by Chairman Frank and 
Congressman Kildee? What provisions in the draft do you support 
and which do you find troubling?
    Mr. Cabrera. Madam Ranking Member, we can provide you a 
pretty detailed list of those things. There's a lot to go 
through--
    Mrs. Biggert. Sure.
    Mr. Cabrera.--and I couldn't cover it in 5 minutes.
    Mrs. Biggert. And I wouldn't remember.
    Mr. Cabrera. But our overwhelming concern would be that 
those funds that are allocated through NAHASDA, primarily the 
Indian Housing Block Grant, be as flexibly utilized with other 
funds as they can be.
    So, for example, the Indian Housing Block Grant allows for 
any number of uses, not just to build units, but, for example, 
a TDHE, a tribally designated housing entity, can create a 
tenant-based rental assistance program, or even a project-based 
rental assistance program if it so chooses, but then it becomes 
tough to dovetail that with another Federal, I'm not going to 
call it a subsidy, but a program, the low-income housing tax 
credit, because inside of Section 42 of the Internal Revenue 
Code, which I know is not the jurisdiction of this 
subcommittee, there is an allusion to the Housing Act of 1937 
that excludes income.
    So if the predicate is laid inside of NAHASDA allowing for 
that tenant-based rental assistance program to be considered as 
if it were the Housing Act of 1937, which is one of the things 
that we've proposed in this oral statement, it would allow for 
families who want to live in those units that are developed 
with the low-income housing tax credit to access those units 
more readily.
    Mrs. Biggert. Okay. And you were talking a little bit 
about--you mentioned infrastructure, and that the needs are 
significant.
    What programs within NAHASDA can be used to meet the 
infrastructure needs? That was mentioned in your opening 
statement, it was mentioned by you, that there seems to be some 
real needs, you know, running water, etc.
    Mr. Cabrera. Right.
    Mrs. Biggert. What programs can be used to meet those 
needs?
    Mr. Cabrera. You know, in my 16 months now in the chair 
that I'm currently inhabiting, and I'm quickly evaporating in, 
the two programs that we promote most often are Section 184, 
which is not under NAHASDA, it's under the Housing and 
Community Development Act of 1992, and Title VI, which is 
NAHASDA, it's Title VI of NAHASDA, Title VI is a program that 
allows the leveraging of funds with, as I recall, a 95 percent 
Federal guarantee for any number of uses beyond housing.
    So that would include, for example, conceivably, water and 
sewer, roads, lighting, any number of things, and some tribes, 
some TDHEs, have used that well. Pasquamadi in Maine have used 
that well. White Mountain Apache have used that well.
    And I think one of the issues for us is trying to get--
there are basic camps within Indian Country that accept greater 
amounts of risk and lesser amounts of risk, and the issue for 
us is going to be getting to a point to use that program to 
develop that infrastructure where possible.
    Now, in some parts of the country, even with that program, 
it's very tough. So, for example, if you go to Alaska, it's 
very difficult to create a water and sewer infrastructure in 
Alaska, because of just technical and engineering problems. You 
can't do that in permafrost.
    And in many villages, if you go to Bethel, for example, 
what you will see is their water and sewer infrastructure is 
above ground, and that may or may not suit certain communities.
    But in those places where that's not an issue, that's 
certainly a program that is enormously useful, and we are going 
to continue to try to promote.
    Mrs. Biggert. Okay. Seems like there's a lot to do there.
    What about manufactured housing? Is that an alternative to 
help meet the affordable housing needs of tribes?
    Mr. Cabrera. It is an option for many tribes.
    A year ago, I approached Director Paulison at FEMA about 
trying to use many of the units. There are different kinds of 
units that FEMA has, and one of those kinds is really a modular 
home more than a trailer. And so we began a long conversation 
with FEMA and BIA and HUD, obviously. I'm missing someone; it 
could be DHS.
    Today, I signed a memorandum of understanding that allows 
for the platform to exist so folks can access those units on 
top of which I know that Congressman Pearce asked a few minutes 
ago whether IHBG funds could be used for the transportation of 
those units.
    We have stated already, and we will state here publicly, 
that the answer is yes, provided those units are used as 
housing.
    So, for example, if a tribe goes and tries to acquire one 
of these units and converts it to an office, that would not 
qualify for an appropriate use, whereas if it does for housing, 
that's fine.
    Mrs. Biggert. Thank you. I yield back.
    Chairwoman Waters. Thank you very much.
    Mr. Cleaver, you're recognized for 5 minutes.
    Mr. Cleaver. Thank you, Madam Chairwoman.
    Before I go into my questions, I would like to associate 
myself with the opening comments of Chairwoman Waters.
    And now let me move to the concerns or questions.
    HUD is taking an active role, perhaps not as active as I 
would like, in terms of building new housing to take into 
consideration the whole issue of energy efficiency and the use 
of renewable resources. With many of the Native American tribes 
in and around the timber industry, is there any effort being 
made, are there any plans on the drawing board to move toward a 
greener development of housing in this program?
    Mr. Cabrera. Congressman, might I have a second? I think my 
staff is trying to get my attention. Excuse me.
    [Mr. Cabrera consulted with his staff.]
    Mr. Cabrera. This is Roger Boyd. He is our Deputy Assistant 
Secretary for the Office of Native American Programs.
    He just informed me that this year ONAP has reached out 
and--reached out to TDHEs in order to start developing ideas on 
basically green construction and green issues.
    Mr. Cleaver. Madam Chairwoman, I'll hold my additional 
comments.
    I yield back the balance of my time.
    Chairwoman Waters. Thank you very much.
    Mr. Kildee is recognized for 5 minutes.
    Mr. Kildee. Thank you very much, Madam Chairwoman.
    First of all, Mr. Secretary, I deeply appreciate your broad 
knowledge and deep concern for Indian housing.
    That is very helpful, I know, to this committee and to the 
Indian community out there. So I'm very grateful for that.
    Recently, we sent a letter to the Secretary about the 
distribution of 45 trailers to one tribe. We were concerned 
about a process being developed for the distribution. I think 
you have about 2,000 that could be distributed, and these were 
distributed without that process being in place. How far along 
are we in developing a process so that tribes can apply under 
that process for these?
    Mr. Cabrera. From HUD's perspective, we're pretty far 
along. The memorandum of understanding, as I noted earlier, 
Congressman, I signed it today. Director Paulison signed it, as 
well.
    That would leave my counterpart, whose name escapes me 
right now, because I think he was just recently appointed at 
BIA, to sign it, and someone at DHS to sign it; I don't recall 
his name.
    Your issue is extremely well received by us. Our issue was 
that we have tranches of available units, and so our big 
concern was making sure that those, that everybody who wanted 
them would have a fair shot at them as opposed to having a 
free-for-all.
    That said, we are continuing conversations to expand the 
universe of available units, and so on the one hand, no, I 
don't have any assurances at this point that we're going to 
have more, but we're trying to create a larger group of units 
so that anybody who wants them and can pay for the 
transportation can do so.
    Mr. Kildee. And you will have a process that you've signed 
today?
    Mr. Cabrera. The MOU is the process. The reason that the 
process--there are several issues, and I know that they are 
called bureaucratic, but they are beyond that; they are legal 
issues.
    The Stafford Act does not allow for the uses of those 
trailers in quite a seamless way, and for very good reasons. 
It's because when we're struck by a national disaster, the 
issue becomes one of availability. So there is an evaluation 
process within FEMA that they have to undertake.
    The second one is an issue of what happens to the trailer 
once it's delivered off-site, and that's a commercial issue. 
That means what happens to the trailer once it gets put on a 
tractor trailer? And the other issues are mechanical ones, 
making sure that people know where to go and where the trailers 
are. One group of trailers, as I recall, is in Texarkana and 
the other one is in Hope, Arkansas.
    So that's really what the agreement addresses, and we're 
happy to share the agreement, if anybody would like to see it.
    Mr. Kildee. That would be very helpful.
    Again, I thank you, and thank you for your service.
    Mr. Cabrera. You're welcome. Thank you.
    Chairwoman Waters. Thank you very much.
    Congressman Boren.
    Mr. Boren. Thank you, Madam Chairwoman.
    Mr. Secretary, thank you for coming today. I have just a 
couple of questions.
    One is in regards to reporting. Indian tribes or the 
tribally-designated housing entities have brought up the issue 
of reporting requirements and the lack of long-term locally 
determined goal-setting involved in preparing and planning for 
housing.
    What is being done at HUD through the regional offices to 
assist the tribes and the TDHEs in setting these long-term 
locally-determined goals? That's the first part of the 
question.
    And a little bit more: With the current reporting 
requirements, how are tribes or TDHEs benefitting from the 
successes and failures of other tribal projects?
    And then finally, I know this is long:
    In other words, what method of communication is being used 
to facilitate communication between tribal entities to share 
best practices for housing needs?
    Mr. Cabrera. That is long.
    In what we propose today in the oral statement, one of the 
things I think we're trying to focus on is to relieve tribe 
stakeholders, TDHEs, from essentially having to comply with a 
lot of production of plans.
    The shorter term plans make a lot of sense. To us, they're 
1-year plans. It is helpful in order to make sure that 
everybody has a forum to communicate about what expectations 
are for the tribe. I mean, one of the central elements of 
NAHASDA is self-determination.
    The issue that we really have is the 5-year plan which 
tends to be of less value, and since we have less value because 
it is such a long window--60 months in housing and 60 months in 
almost anything is a very long time--so the utility of the 1-
year plans is important.
    What are we currently doing?
    You know, I have to say that this community has no 
hesitation whatsoever about communicating with me or anybody 
else, and I'm grateful for that.
    And so I think one of the things that we've done is made a 
commitment to make ourselves as available as possible, whether 
that be regionally or nationally, and that commitment will 
continue.
    And I don't recall your third question.
    Mr. Boren. The third was, in other words, what method of 
communication is being used to facilitate communication? You 
basically answered that.
    But let me ask you something else.
    How often do you personally go into Indian Country, and 
would you be willing to come to Eastern Oklahoma, for instance?
    Mr. Cabrera. Well, you and I were in Eastern Oklahoma. I 
don't mean to--but just to refresh your recollection, I was 
with you in September, at the Cherokee Nation.
    Mr. Boren. That's why I was bringing that up.
    Mr. Cabrera. I've been to the Kackapoo Tribe. I've been 
through a good amount of the Alaska Regional Councils and 
Tribes. I've been to the Miccosukee Tribe, because I'm from 
Florida, and I've been there often. I can't make a 
representation that I can be everywhere.
    Mr. Boren. I mean, do you feel that is a valuable 
experience, to go out like you did with the Cherokee Nation?
    Mr. Cabrera. It is enormously valuable.
    Come September, I think there's a plan for me to go to the 
Navajo event, and I just find that enormously useful.
    And on top of that, you know, we go to the stakeholder 
meetings, so NCHSI, or I'm going to an NCAI event now in Alaska 
again.
    Mr. Boren. I personally want to thank you for coming to my 
district.
    Also, one last question. The ultimate goal of self-
determination is a solid, thriving economic structure. Many of 
the tribal communities in our country lack this structure. 
While it is evident that the implementation of the structure is 
beyond the sole scope of your agency, HUD can play an important 
role in this development.
    What is HUD doing solely or in collaboration with other 
Federal agencies and local/tribal entities to develop an 
infrastructure to promote a thriving economic system?
    Mr. Cabrera. We are a very narrow slice of Indian Country, 
important but narrow, and I have to defer to our sister agency 
at Interior on a lot of that.
    That said, we have always kept a very open, wide open 
channel of communication with BIA, and wherever possible, 
facilitated issues.
    The best example I can give you is a title issue.
    Most of what we do is, we guarantee on the lending of money 
so that mortgages can be sold on the market and therefore be 
made available to Indian Country and make Indian Country 
capable of being underwritten so folks can own their homes.
    And a critical aspect of that is to have title that is 
marketable that a lender can rely on when they get a title 
insurance policy, a mortgagee policy.
    We began a conversation with BIA 3 years ago that 
culminated again in a memorandum of understanding, and that has 
worked reasonably well.
    When there were bumps, we simply picked up the phone and 
said, ``We need to meet, this is the bump, we need to resolve 
the bump.''
    Are things perfect? No. But I think that's because it's a 
very complicated issue. You're dealing with trust land. You're 
dealing with 562 TDHEs. You're dealing with allotted land.
    The fee land is different. Fee is fee. But at the end of 
the day, that complication is when it's going to be--it's not 
so much insidious, but it's going to be--it's going to be a 
perennial issue, to a degree.
    The good news is that a lot of it has been solved, a lot of 
these pieces are in place, and people are taking advantage.
    We've gone from having something on the order of 40 home 
loans 6 years ago to up to 1,400 as I recall.
    So the mission in housing is always slow, steady progress. 
It's never one fell swoop. It's a marathon, not a sprint, and 
so we're pretty committed to that.
    Mr. Boren. Thank you, Madam Chairwoman.
    Chairwoman Waters. Thank you very much.
    The Chair notes that some members may have additional 
questions for this panel, which they may wish to submit in 
writing.
    Without objection, the hearing record will remain open for 
30 days for members to submit written questions to this witness 
and to place the responses in the record.
    I'd like to thank the Secretary for coming today. We really 
do appreciate it. This panel is now dismissed, and I would like 
to welcome our second panel.
    Mr. Cabrera. Thank you, Madam Chairwoman, and members of 
the committee.
    Chairwoman Waters. Thank you very much.
    I'm pleased to welcome our distinguished second panel.
    Our first witness will be Mr. Wendsler Nosie, Sr., chairman 
of the San Carlos Apache.
    Our second witness will be Mr. Mark Chino, president of the 
Mescalero Apache Tribe.
    And Mr. Kildee, I think you have someone here you would 
like to present. Would you please present your witness who is 
here today?
    Mr. Kildee. Madam Chairwoman, thank you very much again for 
your courtesy on this.
    I would like to first of all welcome all the witnesses, but 
recently I was out in Arizona and had a hearing on No Child 
Left Behind, and at that hearing, I heard great testimony from 
San Carlos chairman, Wendsler Nosie, and it's good to see him 
here again today.
    And if you will give as good testimony on housing as you 
did on education, we'll learn a lot here today.
    Thank you very much.
    Thank you, Madam Chairwoman.
    Chairwoman Waters. Thank you.
    Our third witness will be Ms. Cheryl Parish, executive 
director of the Bay Mills Housing Authority in Michigan, who is 
here on behalf of the National American Indian Housing Council.
    And from my own State of California, I'm pleased to welcome 
our fourth witness, Ms. Sami Jo Difuntorum--would you please 
tell me the correct pronunciation--Difuntorum, executive 
director of the Karuk Tribe Housing Authority.
    Our fifth witness will be Ms. Aneva J. Yazzie, chief 
executive officer of the Navajo Housing Authority, representing 
several States.
    And our final witness will be Ms. Jacqueline L. Johnson, 
executive director, National Congress of American Indians.
    Without objection, your written statements will be part of 
the record.
    I will now recognize our first witness, Mr. Nosie, for 5 
minutes.

 STATEMENT OF WENDSLER NOSIE, SR., CHAIRMAN, SAN CARLOS APACHE 
  TRIBE, ACCOMPANIED BY: TERRY RAMBLER, CHAIRMAN, SAN CARLOS 
HOUSING BOARD OF DIRECTORS, AND MEMBER, TRIBAL COUNCIL; RONALD 
  BONI, EXECUTIVE DIRECTOR, SAN CARLOS HOUSING AUTHORITY; AND 
       DIANA LOPEZ JONES, ESQ., HOUSING AUTHORITY COUNSEL

    Mr. Nosie. Chairwoman Waters, and members of the committee, 
thank you for holding this hearing today.
    My name is Wendsler Nosie, Senior, and I am the chairman of 
the San Carlos Apache Tribe. I am honored to be here to express 
some of our views.
    With me today is Tribal Council member Terry Rambler, who 
sits behind me, chairman of the Housing Board of Directors, and 
also Mr. Ronald Boni, director of the Housing Authority, and 
Diana Lopez Jones, our Housing Authority counsel.
    First, I'd like to take a little turn here on the testimony 
and reflect back to 1962, 1963, and 1964, when my mother 
traveled here to Washington, D.C., and spoke to the House of 
Congress, and also to a subcommittee, on the opportunity of 
having future homes on the reservation.
    She stood before the committee and expressed the dire need 
of the people in San Carlos, and also stood with an African 
American who also had expressed their need of housing.
    But first, let me just say that before the reservation, 
people lived as they did in our cultural ways. Second, under 
reservation life, there were many that were living within their 
wickiups and with canvas homes, only for the scouts to have 
what the United States Army had given them.
    And then in the 1920's, the Coolidge Dam was requested to 
be built on the reservation, and forcibly done, which caused 
the people to move to what we call now the new San Carlos, but 
before then, when the old San Carlos was being taken apart, 
they allowed the people to take parts and pieces, boards, and 
to assemble what they would call a home, but many live again in 
wickiups and makeshift homes.
    Then in 1962, 1963, and 1964, that's when the opportunity 
came for housing.
    And as you can see, I submitted an article from the 
``Arizona Republic'' that shows my mother, and that little boy 
there is me.
    As you see there, some of the things that are stated in 
that paper was how they no longer had to go to the compound to 
receive water, and it talked about the use of the house of 
taking the hardship of the people.
    Well, before I came to Washington, I had asked my mother, 
what can I say, or what should I say?
    She said, ``You know, the intent was good back then when 
they had discussed, but it seems like they idled off and have 
gone backwards, because now, many of our people need homes.''
    So she asked me the question to ask you: what happened? 
Because we are the first American people, and this was the 
promise that they had made to Native Americans, but yet 
something has gone wrong.
    As you can see, to my right, I have pictures there that 
show how our living condition is, and how people still suffer 
from having inadequate houses.
    Picture number one is a 70-year-old home that at one time 
housed 12 children, and today it houses 3 adults and 5 
children, and they are on the waiting list for housing.
    Picture number two is a veteran, a war veteran, in World 
War II, and in the summer of 2006 he passed away, leaving his 
widow and his grandkids living in this home in picture number 
two.
    Picture number three is a middle-aged lady and five 
children and one grandchild living in this house, with no 
running water or electricity.
    So as you see, as she had stated to me, there is still a 
lot of work to be done and a lot of the commitments that were 
made need to be fulfilled.
    And this is the great worry that we have in San Carlos, and 
I'm sure in all tribal communities. So we ask that you consider 
the fact of what history had begun with and where we are today, 
and where is it going to take us tomorrow, because every 
livelihood of each child is very important, as well as in other 
tribes.
    We also, as I heard a few minutes ago, on the FEMA 
trailers, the tribe just asks that there be a unique way, a 
fair way of distributing the FEMA trailers, and we ask that a 
strong partnership be made.
    Last but not least, the war in Iraq. We know for a fact 
that it's taking a lot of our dollars, and we ask that this be 
considered, because we are the first Americans, and should 
always be considered the first people.
    I thank you for that, and I thank you for the time you've 
given me.
    [The prepared statement of Mr. Nosie can be found on page 
82 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Our next witness will be Ms. Cheryl Parish.

STATEMENT OF CHERYL PARISH, VICE CHAIRWOMAN, NATIONAL AMERICAN 
                     INDIAN HOUSING COUNCIL

    Ms. Parish. Good afternoon, Chairwoman Waters, Ranking 
Member Biggert, and distinguished members of the subcommittee.
    I am honored to appear before you today to provide our 
views about the reauthorization of the Native American and 
Housing Assistance and Self-Determination Act, NAHASDA.
    I am pleased to be able to share our enthusiasm about, and 
our concerns with, the discussion draft of the proposed 
legislation you have provided.
    My name is Cheryl Parish and I am the executive director of 
the Bay Mills Housing Authority in Brimley, Michigan. I am also 
a member of the Bay Mills Indian community.
    Today, I am here as the vice chairwoman of the National 
American Indian Housing Council (NAIHC).
    NAIHC is the only national Indian organization that 
represents Native American housing interests. The NAIHC is 
composed of 264 voting members representing nearly 460 American 
Indian tribes and Alaska Native villages.
    Tribal communities across this great Nation suffer daily 
from inadequate and unsafe housing. This impacts our education, 
our health, our spirituality, and our pride in our community. 
We all want to lift our heads high but this can be difficult 
when you gaze beyond the reservation boundaries and see how 
others live.
    NAHASDA has made significant strides to improve housing 
conditions within our communities. I urge this committee, other 
committees of jurisdiction, Members of Congress, and this 
Administration to join us to ensure the timely reauthorization 
of NAHASDA.
    It is critical that we act decisively to protect the nearly 
$6 billion investment that the Federal Government has made 
toward Indian housing over the past decade.
    Although great strides have been made since NAHASDA's 
inception, more, and much more, is necessary to make an even 
more powerful impact for native people.
    Clearly, this committee recognizes the importance of the 
reauthorization of NAHASDA.
    NAIHC's member tribes and Indian Housing Authorities 
appreciate the willingness and the support of this committee to 
focus on and to understand what the law means to Indian 
Country, providing desperately needed tools so we can continue 
to improve the housing conditions that our people face every 
day.
    We have submitted for the record a complete discussion of 
all the amendments contained in the discussion draft.
    Madam Chairwoman, I respectfully request that this be made 
an official part of the record, and allow me for a moment to 
focus on the three amendments that we find most encouraging.
    Chairwoman Waters. Without objection, so ordered.
    Ms. Parish. Thank you.
    Eligibility for Federal Supply Sources.
    This amendment is an example of the committee's continued 
support for the congressional findings in NAHASDA.
    Namely, that Federal assistance should be made available to 
tribes and their housing authorities in a manner similar to 
those accorded Indian tribes in Public Law 93-638.
    Tribal Preference in Employment and Contracting.
    This provision is a clear recognition of the inherent 
sovereignty of the Indian tribes to follow their own tribal 
laws. This is not about good politics, this is about good 
policy.
    Operation and Maintenance Costs.
    This amendment will permit the use of funds provided under 
NAHASDA to be used to operate and maintain NAHASDA-financed 
housing. Currently, only through a paperwork-driven process can 
NAHASDA funds be used for such purposes.
    This amendment is local, and it is tribal, in the best 
sense of these terms.
    Again, we applaud, indeed, we are grateful to this 
committee and this able staff we work with, as we seek ways to 
improve and to further enhance NAHASDA, especially in the areas 
that provide more flexibility to administer our programs based 
on the time-honored tradition of self-determination.
    We respectfully submit for your consideration, however, a 
couple of concerns with regard to Subtitle B, ``Self-determined 
Housing Activities for Tribal Communities.''
    While we address this issue at length in our written 
testimony, please allow me to summarize.
    We have four areas of concern: The permitted activities 
identified in Subtitle B, Section 233(a) currently already 
exist within NAHASDA; this section does not seem to permit any 
common area construction or communal usage that is so important 
in our tribal communities; this section does not permit the use 
of any funds for infrastructure; and the fixed-income family 
section may be more restrictive than current statute and 
regulation require. We would like to recommend that this 
requirement to verify incomes every 3 years for fixed-income 
families be stricken from Section 2.
    In conclusion, the proposed legislation is an important 
step forward and a marked improvement over current legislation. 
It will ensure that the reauthorization of NAHASDA will result 
in improved housing conditions for all Native Americans.
    I'd like to thank the committee for its interest in 
pursuing the reauthorization of NAHASDA, its commitment to 
Indian self-determination and self-sufficiency, and its 
continued support for American Indian, Alaska Native, and 
Native Hawaiian people.
    I'd be happy to answer any questions that you may have.
    [The prepared statement of Ms. Parish can be found on page 
91 of the appendix.]
    Chairwoman Waters. Thank you.
    Ms. Sami Jo Difuntorum.

  STATEMENT OF SAMI JO DIFUNTORUM, EXECUTIVE DIRECTOR, KARUK 
                    TRIBE HOUSING AUTHORITY

    Ms. Difuntorum. Good afternoon, Chairwoman Waters, and 
distinguished members of the subcommittee.
    My name is Sami Jo Difuntorum, and I am the executive 
director of the Karuk Tribe Housing Authority, and an enrolled 
member of the Shasta Tribe, also from California.
    On behalf of the Karuk Tribe and the Karuk Tribe Housing 
Authority (KTHA), I'd like to thank the chairwoman and members 
of the subcommittee for holding this hearing.
    I'm honored to testify at today's hearing in support of 
reauthorization of NAHASDA and in support of proposed 
amendments to the draft bill that will make it even stronger.
    The Karuk Tribe is made up of several communities located 
along the Klamath River in two extremely rural portions of 
Siskiyou and Humboldt Counties in northwestern California, with 
approximately 3,600 enrolled tribal members. Our trust and 
reservation land is approximately 600 acres.
    We serve one of the most remote, poverty-stricken areas of 
California. This region was estimated to be 85 percent timber-
dependent and its economy has not recovered from the closure of 
local mills. In 2006, 90 percent of the students enrolled in 
the local school qualified for the free lunch program.
    The Bureau of Indian Affairs indicates that unemployment is 
at 89 percent for our tribe in our Indian area, and the 
unemployment rate for the tribe by census data is 83 percent. 
The waiting list for homes has over 350 applicants, most of 
whom have no other viable housing options.
    Since the passage of NAHASDA, the KTHA has developed a 
broad range of housing services using the flexibility in this 
Act to meet the needs of our service population.
    Through the employment of a loan officer, we provide four 
or five low-interest loans per year, equalling approximately 15 
percent of our IHBG, Indian Housing Block Grant. We have a 
rental voucher program for college students and elders who live 
off reservation.
    One of our communities, called the Forks of Salmon, has no 
electricity. We're currently incorporating innovative design 
features, including solar components, in constructing projects 
for this community.
    Reauthorization of the NAHASDA provides an excellent 
opportunity to strengthen the Act by increasing its flexibility 
and efficiency.
    The 350 families on our waiting list must live for many, 
many years in overcrowded and often substandard housing before 
a unit becomes available.
    The most recent discussion draft of the NAHASDA 
reauthorization bill includes many amendments that we support 
as a means to provide greater flexibility and to promote tribal 
self-governance and self-sufficiency.
    The goal of much of the bill is to strengthen tribal self-
determination. I'd like to comment on two specific provisions.
    Procurement: Exempt purchases of less than $5,000 from the 
competitive procurement requirements of the Act. HUD currently 
requires that we demonstrate compliance with the competitive 
bid requirements for every purchase, no matter how small. The 
application of competitive purchasing requirements to these 
``de minimis'' purchases often costs as much or more than the 
purchase itself.
    During an onsite monitoring review by HUD, the regulations 
at 24 CFR 8536 were interpreted to mean that a TDHE must obtain 
three price quotes for all purchases, even a box of pencils. 
KTHA has three communities spanning 130 miles. The amount of 
supplies purchased for maintenance and operations alone is 
significant.
    And we've been fortunate. We've been able to employ a full-
time person just to do purchasing, but a lot of the small 
tribes, particularly in California, are not able to do that, 
because of the amount of money they receive, so we very 
strongly support this provision of the discussion draft.
    Training and technical assistance. Tribes and Indian 
Housing Authorities also have a need for training and technical 
assistance. Earmark reform meant funding for the National 
American Indian Housing Council Training and Technical 
Assistance was eliminated. The NAIHC receives no additional 
funding to support training and technical assistance.
    Section 703 of NAHASDA specifically authorizes 
appropriations for a national organization representing Native 
American housing interests for providing training and technical 
assistance to Indian housing authorities and Tribally 
designated housing entities. That's not an earmark, that is an 
authorization.
    We strongly support the amendment authorizing training and 
technical assistance by a national organization through 2012.
    We hope NAHASDA further evolves to accommodate the ever-
changing needs of Indian Country.
    I'd like to thank the committee for its interest in 
pursuing reauthorization of NAHASDA and its support for 
American Indian, Alaska, and Native Hawaiian people.
    I would be happy to answer any questions you might have.
    [The prepared statement of Ms. Difuntorum can be found on 
page 53 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Our next witness will be Aneva J. Yazzie.

 STATEMENT OF ANEVA J. YAZZIE, CHIEF EXECUTIVE OFFICER, NAVAJO 
                       HOUSING AUTHORITY

    Ms. Yazzie. Thank you, Madam Chairwoman, for this 
tremendous opportunity to testify before the Subcommittee on 
Housing and Community Opportunity.
    I applaud you, Chairman Frank, Ranking Members Bachus and 
Biggert, and all the members of this committee for your 
attention to housing issues, particularly the issues affecting 
Indian Country.
    I would also like to say ``ya `at `teeh'' to Congressman 
Pearce, whose district includes a significant portion of the 
Navajo Nation.
    I am from the Bitter Water, born from the Bitter Water 
Clan. I'm from the Black Street Wood People Clan. My paternal 
grandparents are the Meadow People Clan and my maternal 
grandparents are from the Near the Water Clan. So that's who I 
am as a Navajo woman.
    At the committee's request, I will summarize my written 
testimony, but I'm happy to answer any questions.
    The Navajo Housing Authority has made great strides in 
improving the lives of tribal members, and in the last decade 
has done even better thanks to the Native American Housing 
Assistance and Self-Determination Act, which we know as 
NAHASDA.
    While appropriations is not in the jurisdiction of this 
committee, as I am testifying before Members of Congress, I 
would be remiss if I did not comment on appropriations.
    NAHASDA is a good law, but the funding for NAHASDA is too 
low for the real promise of the law to be realized.
    We hope you, Madam Chairwoman, will use your influence as a 
leader in Congress on housing issues to convince your 
colleagues to provide the necessary funding to support the 
thousands of families who have nowhere else to turn for housing 
assistance.
    As I said, NAHASDA is a good law, but it is not a perfect 
law. Your discussion draft makes several important 
improvements.
    The centerpiece of the discussion draft, the Self-
determined Housing Activities Program, is a bold proposal that 
recognizes the original intent of NAHASDA as described in the 
findings and purposes of the law. Your proposal is a move 
toward true self-determination. We are excited by the prospect 
and look forward to implementing this provision for Navajo.
    However, we hope the committee will consider broadening the 
language to allow the support of activities that require some 
expenditure of funds on infrastructure. In Indian Country in 
general, and Navajo in particular, housing cannot be built 
without infrastructure. Existing water and waste water 
facilities are hopelessly overburdened, and in many areas of 
our land do not exist at all. In Indian Country, the lack of 
infrastructure is an affordable housing problem.
    Other provisions in the bill, including the eligibility of 
the essential Indian families in housing and the inclusion of 
police officers will go far to strengthen our communities. 
While these provisions may at first seem technical, they will 
have a real impact in Indian Country.
    Likewise, the ``de minimis'' exemption from procurement 
rules when a NAHASDA recipient is spending less than $5,000, 
will alleviate administrative burdens and allow us to focus on 
addressing real problems rather than focus on paperwork 
exercises.
    The savings one might find through a competitive bid 
process were such small amounts it was far outweighed by the 
amount of time and effort that must be put in to solicit and 
review the bids.
    One part of NAHASDA that continues to frustrate tribes and 
policymakers is Title VI. While I worked with the program 
before coming to Navajo, few tribes have successfully accessed 
the program.
    I believe this program remains underutilized for two basic 
reasons.
    First, there has been a lack of effective education about 
the program. We are pleased to see that the draft bill 
addresses that by including a requirement that HUD provide 
training on the use of Title VI guarantees, and we fully 
support that provision.
    Second, the activities allowed under the current Title VI 
program are so limited that the eligible activities cannot 
generate enough income to cover debt service on the guaranteed 
loan.
    Title VI is based on a very successful Section 108 program 
which allows recipients of CDBG to borrow or issue bonded debt 
for up to 5 times our annual formula allocation to support the 
functions otherwise allowed under CDBG.
    Tribal governments are prohibited from utilizing the 
Section 108 program because tribes compete for one national 
set-aside. Without a formula allocation, you cannot use Section 
108 guarantees.
    Amending Title VI to include the eligible activities 
allowed under Section 108 would allow tribes to access the 
benefits of the program non-Indian communities have used for 
years.
    This would have the effect of increasing investment in 
economic development and infrastructure where it is desperately 
needed, without increasing Federal appropriations.
    We would like to work with the committee to see if this 
proposal, even in the form of a demonstration, could be 
included in this bill.
    Again, I would like to thank you, Madam Chairwoman, and the 
committee, for this opportunity, and applaud you for your 
efforts so far.
    I recognize that there is much work to be done before this 
legislation becomes law, but I look forward to continuing this 
important work to see that these amendments become law and 
NAHASDA is reauthorized.
    Thank you.
    [The prepared statement of Ms. Yazzie can be found on page 
102 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Our next witness will be Ms. Jacqueline Johnson.

    STATEMENT OF JACQUELINE L. JOHNSON, EXECUTIVE DIRECTOR, 
             NATIONAL CONGRESS OF AMERICAN INDIANS

    Ms. Johnson. Thank you very much for allowing the National 
Congress of American Indians to testify here today. The 
National Congress of American Indians is the largest and oldest 
national Native American organization advocating for the rights 
of tribes and tribal governments to achieve self-determination, 
here in Washington, D.C.
    I personally am an Alaska Native, Tlingit from Alaska, and 
former president of the National American Indian Housing 
Council and Deputy Assistant Secretary for HUD for the Native 
American Programs during the implementation of NAHASDA, so it 
gives me extreme pleasure to sit amongst my peer group here 
today and to thank them for the fine work that they have done, 
and to thank you at the committee for the fine work that you 
have done, in moving forward this reauthorization of NAHASDA, 
which I think revolutionized the way that Native American 
housing funds are provided to Indian communities and to be able 
to provide the flexibility that tribes need to design and to 
develop and manage housing programs to meet their own unique 
needs.
    There were several things that were important when we 
developed NAHASDA initially.
    One was to be able to have the flexibility which the 
program has, but also to be able to maximize the limited 
Federal dollars and to leverage them, and I appreciate and 
support some of the recommendations that are put into the draft 
legislation to be able to help continue to move that forward, 
particularly the enhancements to allow for the low-income tax 
credit program, being able to allow for those revenues received 
to be able to be reused by the tribes and the TDHEs, and to 
create further incentives for tribes to utilize those 
leveraging programs.
    I also appreciate the recognition to be able to have access 
to the General Services Administration program to procure 
property and services, as many tribes do, and I applaud the 
effort.
    I do have a recommendation, however, that I would like us 
to take a look at that language.
    The way it currently is drafted, it could be interpreted to 
be a mandatory program rather than a program at the tribal 
discretion, and I think by using language that is used in the 
Indian Self-Determination and Education Assistance Act, that 
language would help give the flexibility that tribes need to 
decide when they choose to utilize that program.
    And of course, I support all the preferences for employment 
and contracting.
    Given the record of what you've heard already today about 
the high unemployment, and many of the income levels within our 
communities, anything that we can do to help deal with getting 
our own members to work, giving them jobs, is very important 
and consistent with the vision of tribes.
    I also believe very strongly in the changes and the 
technical corrections that are very necessary to the definition 
of essential families, as well as the eligibility of law 
enforcement officers for residency in our communities.
    Many of you know that we're faced with all kinds of issues. 
Currently, a great meth epidemic in Indian Country is one of 
those, and we really do need to have cooperative agreements and 
relationships with the law enforcement officers to be able to 
address this.
    And I know many of the housing authorities and housing 
communities have been very proactive in education about anti-
meth efforts and eradication.
    I do want to talk about the reserve funds, and I know, 
Madam Chairwoman, you brought that up earlier, the 20 percent 
cap on the reserve funds, and I have a different perspective 
than Assistant Secretary, Orlando Cabrera, whom I deeply 
respect and truly thank for his efforts and his work and his 
willingness to come out to Indian Country, and to be educated.
    But I think that the 20 percent reserve cap is--the reserve 
funds were there for administrative purposes to be able to be 
like a business, to be able to have a reserve when you needed 
to be able to come against one, and to also be able to deal 
with the leveraging issues that Assistant Secretary Cabrera 
brought up.
    But with the way that the funding for NAHASDA is allocated, 
it is based upon a formula, and some tribes get a very, very 
limited amount.
    In fact, some tribes who get the base amount, the minimal 
amount is only $25,0000, and therefore, a 20 percent cap is 
very, very little, and those tribes need to save those monies 
up for multiple years, even if they were going to leverage the 
housing dollars.
    And so if you look in my written testimony, I give an 
example of an Alaskan Native village, but whose housing cost is 
about $450,000, just to construct a home for one tribal member, 
and being capped at $5,000 a year takes many years before they 
will actually be able to leverage the dollars.
    So I propose taking a look at or having some conversations 
with tribes and consultation with tribes, but perhaps coming up 
to a sliding scale on the cap so that the smaller tribes aren't 
penalized by a cap that may be an effective cap for the larger 
tribes.
    I also wanted to commend the efforts in the legislation to 
deal with some of the administrative burdens that were 
unnecessary, such as the $5,000 exemption for procurement, as 
well as the release of the mandatory recertification process.
    A number of those kinds of efforts in the legislation, I 
believe, will help to make the housing authorities have the 
flexibility and the tribes to have the flexibility to be able 
to address those things of their own accord and with their own 
policies.
    But I do want to spend just a moment here of my time, 
before it is gone, to--
    [The prepared statement of Ms. Johnson can be found on page 
62 of the appendix.]
    Chairwoman Waters. Your time is up. I'm sorry. You passed 
your time.
    We're going to move on to Mr. Chino.

STATEMENT OF MARK R. CHINO, PRESIDENT, MESCALERO APACHE TRIBE, 
AND CHAIRMAN, BOARD OF COMMISSIONERS, MESCALERO APACHE HOUSING 
                           AUTHORITY

    Mr. Chino. Good afternoon, Chairwoman Waters, Ranking 
Member Biggert.
    My name is Mark R. Chino, and I am the president of the 
Mescalero Apache Tribe. I'm also the chairman of the Board of 
Commissioners of the Mescalero Apache Housing Authority.
    Thank you for inviting me to testify about the 
reauthorization of NAHASDA and the housing needs of American 
Indian people. Few programs provide such a rich return on 
investment as does NAHASDA. Every dollar invested by Congress 
in Indian housing yields great benefits.
    The system that Congress set up in 1996 has made a real 
difference in the lives of many Indian people, yet the program 
remains significantly underfunded. Adjusted for inflation, 
Congress is spending less on Indian housing needs than it did 
in 1996. The program needs more money.
    Indian housing has come a long way in the last 50 years. 
When I was born on the Mescalero Apache Reservation, many of 
our tribal members were still living in wickiups and other 
traditional types of housing.
    The long tenure of my late father, Wendell Chino, saw many 
modern houses built on the reservation, and a general 
improvement in the housing situation.
    The housing needs of our people are still great, however. 
We have a waiting list of almost 400 families for homes. Many 
homes built for 3 or 4 people house 10 or more extended family 
members. Even with these great needs, Mescalero is still a 
``fortunate'' tribe.
    On the Navajo Nation, for example, tens of thousands of 
people do not have running water or electricity. In fact, 
statistics show that almost 14 percent of Indian housing 
nationwide does not have adequate plumbing. This is staggering. 
This is a situation that only can be remedied by the dedication 
of significant financial resources.
    I'm not here today to speak about funding levels. I am here 
to urge you to reauthorize NAHASDA.
    Apart from dedicating more financial resources to meet 
Indian housing needs, reauthorizing NAHASDA is the single most 
important thing that Congress can do for Indian housing this 
session. Time has shown that this legislation does work.
    The discussion draft contains several amendments, many of 
which are positive.
    I am very pleased to see the inclusion of not only a 
generalized Indian preference in contracting, but a more 
specific tribal preference as well. This will hopefully lead to 
economic development throughout Indian Country.
    Several large, tribally owned contractors have benefitted 
from the Indian preference language of the 1996 statute. 
Hopefully, this tribal preference will more directly benefit 
small, locally owned businesses.
    The broadening of the ``essential families'' exception is 
also a positive change.
    Being able to offer housing services to more non-low-income 
families who are needed on the reservation should help attract 
more talented people to Indian Country.
    Lack of housing options really does deter people like 
doctors and teachers from coming to Indian Country, and this 
amendment should make it easier to attract these types of 
people.
    In the same vein, allowing all law enforcement officers to 
be considered ``eligible families'' will hopefully make it 
easier to recruit much-needed police officers.
    Procurement should also be made easier through the ``de 
minimis'' exemption.
    Under the proposed legislation, procurement of items worth 
less than $5,000 will not require the often time-consuming task 
of competitive bidding. This will free administrative talents 
to accomplish more worthwhile things.
    There are several things that are not included in the 
draft, which I believe are important.
    NAHASDA needs to be amended to allow tribes to better 
utilize NAHASDA dollars for community infrastructure. Houses 
can't exist in isolation from roads, sewers, utilities, and 
other types of community support structures.
    As a retired BIA law enforcement officer, I can tell you 
that a community needs an adequate public safety program or 
public safety system to thrive.
    NAHASDA should focus more broadly on the community and not 
confine itself to bricks and mortar for houses.
    Thank you again for inviting me to testify today. 
Reauthorization of NAHASDA is the first step toward ensuring 
the Federal Government fulfills its responsibility to the 
housing needs of Indian people.
    [The prepared statement of Mr. Chino can be found on page 
50 of the appendix.]
    Chairwoman Waters. Thank you very much.
    I'll recognize myself for 5 minutes, for questioning.
    I understand there is some controversy over the formula 
that HUD uses to distribute NAHASDA funds. The bill does not 
address this distribution issue.
    It appears that HUD is not going to propose an amendment 
that would change the current approach. I would like to ask any 
of you who would like to take this question on to explain the 
controversy and whether there is a consensus solution among the 
tribes about how to address it.
    Is this an appropriate time to talk about that?
    Ms. Johnson, you didn't finish talking, so help us with 
this.
    Ms. Johnson. You're right. There is an issue of lack of 
consensus around the data that's used for the formula 
distribution.
    When we first developed NAHASDA, and had the first formula 
meetings, we determined the principles behind what was the need 
components before we ran the numbers, and so we all--we were 
able to receive consensus in Indian Country of the need 
components that would be identified for the distribution of the 
monies amongst tribes.
    It becomes more challenging now, because everybody knows 
exactly what certain data sets mean.
    I think the challenge for Indian Country really is that we 
don't have a way of truly assessing need, and one of the things 
that I think would be good for the committee to encourage is 
HUD and the tribes to sit down in consultation to determine a 
way, on a regular basis, to be able to update information and 
data about need and develop some methodologies that we can 
consistently not only help us for advocating our program, but 
help us in the appropriations process.
    I know that there are some proposals out there to talk 
about how we can come together on that, as far as ideas of 
tribes developing their own data sets around certain areas, but 
I do believe that this is an issue that needs further 
consultation with tribes and HUD, and I believe the tribes are 
willing to put forward options to consider.
    Chairwoman Waters. Thank you.
    Would anyone else like to address that? Do you have any 
other ideas or proposals about how to deal with this little 
controversy around the formula?
    If not, I'll just move right on.
    A number of you have objected to a requirement that funds 
provided under the self-determined housing activities for the 
tribal community program are solely for housing activities 
rather than infrastructure. That was just mentioned in the last 
testimony, commercial or economic development.
    Given the tremendous need for pure affordable housing on 
Indian lands, I wondered if somebody might explain to me why 
this limitation is unreasonable, especially in a program where 
the word housing is really the centerpiece of the statute.
    Now, I'm asking that even though I just heard the testimony 
that was given that explained the need for community and 
infrastructure.
    Would anyone like to expand some more on that?
    Mr. Chino. Certainly, Chairwoman Waters.
    I think it's very, very important for any Indian community 
that wants to expand and improve its housing for its members to 
be able to use not only NAHASDA funds but any available source 
of funds to set up the infrastructure that's needed for any 
type of housing, be it manufactured housing or permanent homes.
    Without that infrastructure, without sewers, without 
electricity, it does no good to set either a mobile home or a 
permanent home on a particular site.
    If you can't provide sewer, electricity, and water to that 
home, then all you have is a structure sitting there and a 
family occupying it with no way to wash their clothes, and with 
no way to power their telephones, televisions, or radios.
    There has to be infrastructure in order to make housing 
successful, and so the tribes would need some flexibility to 
use funds to establish infrastructure, because as I said, it 
does no good to set a house down without those utilities in 
place.
    Chairwoman Waters. That makes a lot of sense.
    All right. I will recognize Mr. Pearce for 5 minutes for 
questioning.
    Mr. Pearce. Thank you, Madam Chairwoman.
    Just on followup, would any of you like to comment about 
that infrastructure question, the flexibility to spend money on 
infrastructure? Is it a problem for anyone else?
    Ms. Parish. Sir, that's a problem that we face in Indian 
housing across the board.
    Unfortunately, we have a limited amount of money. Indian 
health has a limited amount of money. We're not allowed to 
commingle our funds. The tribes should be able to decide 
basically where they get the limited funds and where they want 
to put them. That should be a tribal decision.
    But it all boils down to lack of funding. We need water, we 
need sewer, all the way through the reservations, and I would--
Congressman Kildee has seen, you know, the conditions in 
Michigan, and he can speak to those areas. Alaska is so much 
worse. And you know your areas, and the astronomic cost.
    But it also goes into not being able to put it in community 
buildings or anything like that. That also is a local, tribal 
decision.
    If my tribal council says that they need a place where they 
can serve our low-income people, to teach them traditional ways 
to do the beading, to go and have the elders teach the history, 
that is part of creating a community. Not only do we build a 
house, but we are to build a community.
    Mr. Pearce. The underlying bill declares 15 percent of the 
$1 million for local flexibility, but then it appears to limit 
this infrastructure.
    And would you give a strong recommendation that we include 
that flexibility or just is that a yes--
    Ms. Parish. All the way across the board.
    Mr. Pearce. Yes across the board?
    Ms. Yazzie. That would be correct.
    For Navajo, being the largest Indian housing organization 
in the country, the 15 percent of $1 million certainly will 
assist, more so with smaller tribes, I guess, but you weren't 
here in the room, I realize, Congressman Pearce, when we talked 
about the Title VI provision, which we would be accommodating 
for Navajo, just given our size, with respect to expanding the 
eligibility activities that are afforded under Section 108 of 
the CDBG program, to address costly offsite infrastructure 
costs, especially for Navajo, given its size and the 
remoteness.
    Mr. Pearce. Okay. Recently, our office wrote to the 
National American Indian Housing Council to send information 
about the success of NAHASDA in New Mexico.
    The response I received was that--it included some relevant 
information, but basically said it should be noted that it is 
difficult to estimate any statistical degree of success, and 
continues on that the Department of Housing and Urban 
Development does not maintain aggregated data of the required 
Indian housing plans, the IHPs, or the annual performance 
reports, the APRs, to measure the relative success of NAHASDA 
funding.
    Now, my interest is what kind of data is collected from the 
tribes and the designated entities? What kind of data do you 
turn in, that is not tracked?
    Do you not turn in any data?
    Ms. Parish. We turn in an extreme amount of data. As far as 
I know, HUD has no way to calculate and compute that data.
    Jackie can answer that.
    Ms. Johnson. The difficulty is, the data that's submitted 
is based upon the tribe's plan, and the tribe's plan is based 
upon the tribe's goal.
    So the tribe may have a low-income, traditional low-income 
housing, they may have a low-income home ownership program, but 
they may have a whole bunch of other programs that are in 
between that.
    And so all this information comes in based upon how did 
they achieve their goals in the programs they determined, but 
it's hard to aggregate that, given the diversity of the types 
of programs that tribes are taking on.
    That's why I suggested that data is sorely needed, and it's 
very, very difficult for us to continue to advocate without the 
data, and that we do need to come up with some methods of 
measuring success in Indian Country but also being able to 
measure the unmet need.
    Mr. Pearce. Would a straightforward electronic submission 
and then the compilation be okay?
    Ms. Johnson. Yes, but I think Indian Country needs to work 
with the Department to determine what are those measures, so 
that we don't get into jeopardy with any, you know, GIPRA or 
other kinds of goals or measures of success.
    But that's exactly what we're looking for, something that's 
a regular, that we just electronically do, that's not an 
additional administrative burden, but that helps us all achieve 
our goals.
    Mr. Pearce. Is it possible--
    Chairwoman Waters. Sum up your questions at this time.
    Mr. Pearce. I'll yield back.
    Chairwoman Waters. All right.
    Mr. Cleaver, you are recognized for 5 minutes.
    Mr. Cleaver. Thank you, Madam Chairwoman.
    Ms. Parish?
    Ms. Parish. Yes, sir.
    Mr. Cleaver. Hi.
    Ms. Parish. Hi.
    Mr. Cleaver. In your statement, on Page 4, you say, ``We 
are concerned that there is to be a prohibition on the use of 
any funds proposed for the self-determined housing activities 
to be used for infrastructure.''
    Ms. Parish. Yes, sir.
    Mr. Cleaver. Are those funds presently used for--are self-
determined housing activities presently used for 
infrastructure?
    Ms. Parish. We don't have the model program in place, so I 
guess the answer to that would be no, because it does not 
exist.
    Ms. Johnson. The current program allows for infrastructure. 
The new proposed program has a limitation on that, 15 percent--
    Mr. Cleaver. Yes.
    Ms. Johnson.--of infrastructure.
    Ms. Parish. Right.
    Mr. Cleaver. Okay. And you are interested in that program, 
those dollars being used for infrastructure?
    Ms. Parish. Yes.
    Mr. Cleaver. And that has been conveyed to HUD?
    Ms. Parish. Yes.
    Mr. Cleaver. Do you have any idea why the prohibition was 
added to at least the draft legislation?
    I know this is a question probably for HUD, but I'm just 
curious as to whether or not there's a commonly known reason 
that there was some prohibition.
    Ms. Johnson. I think that there was an effort by folks to 
strike a balance between putting forward a program that has 
total flexibility so that the tribes and the TDHEs no longer 
have to go for HUD approval every time.
    In the existing legislation, there's an allowance for model 
activities, but you have to get HUD's approval all the time, 
and that's a long, arduous process.
    Mr. Cleaver. Yes.
    Ms. Johnson. And some people have been successful.
    This program says, without HUD's approval, you can move 
forward with these related activities, and there is an effort 
to strike a balance between what would be just totally okay to 
do without making sure that somebody doesn't kind of get into 
trouble.
    And so we still think there needs to be more work on the 
language on eligible activities. You're talking about 
infrastructure. Comprehensive planning is also an important 
component that's not eligible under that particular language.
    And I think that if we're trying to really build 
communities, we need to think about those things that are not 
totally bricks and mortar as proposed.
    Mr. Cleaver. I agree.
    Ms. Yazzie.
    Ms. Yazzie. Yes.
    Mr. Cleaver. I asked the Secretary a question concerning 
the greening of public housing.
    In looking at the houses that were put before us, and I'm 
sure there are probably some more contemporary housing there, 
but my concern, and I hope that a concern will grow with the 
housing authority, that great effort and time be taken to make 
sure that, to the highest degree possible, that carbon neutral 
housing be developed.
    And the reason for that is that is where the country is 
going, and so the housing authority would fall further behind 
if we expend dollars in this fiscal year to build housing that 
the rest of the country, and indeed most of Europe, is trying 
to get away from.
    So that's more of a comment than a question. I'm hoping 
that you agree.
    Ms. Yazzie. I totally agree.
    In fact, that's one of the initiatives that the Navajo 
Housing Authority is pursuing and supporting.
    We obviously, we currently have a green product, actually, 
a Flexcrete plant, in which we have, it's a cement base, ply-
ash mix building block that we're offering, and it has lots of 
energy conservation values.
    Obviously, our clientele is low income families, and so 
we're looking at all avenues to reduce utility consumption 
costs for our families.
    And so that is an initiative that we are actively pursuing, 
and engaging with universities in the State of Arizona, and to 
the extent that we can lend that to the State of New Mexico, as 
well as the University of Utah, because we are in a tri-state 
service area, that we are partnering with those institutions to 
research and development in the areas of energy conservation.
    So we have three homes actually, three prototype homes that 
have utilized our product, that have been analyzed over a 
year's time, and which have showed some significant cost 
savings in terms of energy usage.
    So we welcome the Congress and the committee members to 
come out and see some of the prototypes that have been built 
thus far in each of the three States that we serve.
    Mr. Cleaver. Thank you.
    Chairwoman Waters. The time has expired.
    Thank you very much.
    Mr. Kildee.
    Mr. Kildee. Thank you, Madam Chairwoman.
    Ms. Parish, first of all, give my greetings to Chief Jeff 
Parker.
    Ms. Parish. I will.
    Mr. Kildee. And I think the last time I visited Bay Mills, 
I remember I met one of your elders, Mr. LeBlanc, who has 
passed on since then, and he gave me great wisdom; and I met a 
very young person, who went on later to go to Michigan State 
University and interned for me, Brian Newland. And if you would 
tell him I said hello, I'd appreciate that very much.
    Ms. Parish. I will. I will be seeing him this weekend, 
hopefully.
    Mr. Kildee. Let me ask you this, Cheryl.
    Would you explain how we can build upon the self-
determination component of NAHASDA, which is a very important 
part?
    Ms. Parish. I believe basically that the tribes and the 
TDHEs need to work within the established laws. The tribes have 
to be able to design and determine what is best for their 
membership, so long as we follow the structures set forth in 
the legislation and the guidelines.
    Along those lines, though, I do believe that HUD has to 
have a little bit more consistency among its regions.
    I might ask to develop a project, being in upper Michigan, 
and they might allow it. Jackie might ask to do the same thing 
within Region 9 in Alaska, and that particular administration 
or that ONAP office might deny it.
    I think they need to set forth a standard answer that is 
good across the country.
    We also need--they play a very important role in the better 
management of tribal housing programs, and they need to provide 
leadership in raising capacity building within our Indian 
housing authorities, rather than focussing on being 
disciplinarians.
    Capacity building and teaching mechanisms such as those 
outlined in your education seminar section of the proposed 
legislation related to the loan guarantee programs will only 
serve to complement self-determination.
    Mr. Kildee. Thank you very much.
    And Ms. Johnson, you mentioned that you had some concern 
about the GSA provision where you could purchase through GSA.
    Our intention, of course, is to make GSA more accessible to 
you, not mandate that, but I think the language is good there, 
but we'll take a look at that.
    Ms. Johnson. Great.
    Mr. Kildee. I appreciate your testimony.
    Ms. Johnson. Thank you.
    Mr. Kildee. Thank you.
    I yield back the balance of my time, Madam Chairwoman.
    Chairwoman Waters. Thank you very much.
    Mr. Boren.
    Mr. Boren. Thank you, Madam Chairwoman.
    I have one question. I have a comment, too, for Mr. Chino.
    I want to say, Mr. Pearce is gone now, we're in the middle 
of a markup in resources, and he and I are both vice chairs of 
the Congressional Sportsmen's Caucus, and I know particularly 
you all are very active in promoting elk populations as well as 
black bear, and I want to thank you for those efforts, as a 
sportsman.
    A question I have for Cheryl and Jackie, here's the 
question.
    Although each tribe is unique in their housing needs, a 
constant theme throughout the testimony today is the need for 
increased funding in various programs through NAHASDA.
    Unmet housing needs and long waiting lists for housing are 
two tangible ways to recognize this need.
    The National American Indian Housing Council supports the 
use of grant amounts over extended periods allowing tribes or 
TDHEs to carry unexpended funds from one fiscal year to a 
subsequent fiscal year.
    Given the testimony documenting the unmet housing needs, 
what would necessitate the need to carry over funds?
    Ms. Parish. In my area, we have a very short building 
season.
    In a lot of cases of our smaller housing authorities, our 
grant amounts aren't enough to build anything in a given year. 
We have to save our money. And that would be one of the prime 
reasons.
    A lack of money, and able to--you mentioned your Title VI. 
Well, your smaller housing authorities, they don't have the 
money--I don't dare leverage the small amount of money that I 
get with Title VI. I'd have nothing really left to operate on.
    So, you know, the smaller ones are the ones that also need 
the reserve accounts for that very purpose, because we don't 
have enough to build in one season or the building season is 
too short.
    Mr. Boren. Okay.
    Ms. Johnson. I agree with what Cheryl has to say.
    I think that one of the reasons is that, first of all, it's 
a good tracking device, anyway, for us to be able to see what 
is there from prior years and to be able to use that and carry 
it forward.
    But lots of times, there are unexpected issues, whether it 
has taken a while to be able to deal with the title issue 
through the Bureau of Indian Affairs, or other kinds of things 
that don't allow for that to move forward.
    I, on the other hand, am also concerned, probably just like 
you are, that we make sure that we get the money out and we use 
it, because unexpended funds makes it more difficult for us to 
get forward.
    And I think all of us feel that same tension, so we 
recognize the importance of that, once again, striking a 
balance of having the flexibility to be able to develop and to 
be able to, by having economies of scale around a housing 
development, deal with the efficiencies that are necessary to 
put forward more units and still being able to deal with 
getting those funds out and expended so we can show Congress 
that we are a good Federal investment.
    Mr. Boren. That makes sense.
    Thank you all so much.
    Chairwoman Waters. Thank you very much.
    And I'd like to thank our panel of witnesses for coming 
today and providing us with such valuable testimony that will 
help us to move this legislation forward, and hopefully to make 
some of the corrections that are recommended.
    The Chair notes that some members may have additional 
questions for this panel, which they may wish to submit in 
writing.
    Without objection, the hearing record will remain open for 
30 days for members to submit written questions to these 
witnesses and to place their responses in the record.
    This panel is now dismissed.
    Before we adjourn, the written statements of the following 
organizations will be made part of the record of this hearing: 
The Association of Alaska Housing Authorities; the Housing 
Assistance Council; and Enterprise Community Partners.
    This hearing is now adjourned. Thank you very much.
    [Whereupon, at 4:22 p.m., the hearing was adjourned.]


                            A P P E N D I X



                              June 6, 2007

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
